April 30, 2002

GOVERNORS

SUBJECT:     Postal Service’s Transformation Plan
             (Product Number CQ-OT-02-002)

The Office of Inspector General has conducted substantial work related to the
three commitments outlined in the Postal Service’s Transformation Plan. We are
providing the results of this work, which the Postal Service should consider when
implementing the commitments.

If you have any questions or need additional information, please contact me at
(703) 248-2300.



Karla W. Corcoran

Attachment

cc: John E. Potter
    John M. Nolan
    Patrick R. Donahoe
    Susan M. Duchek
                                     The Transformation Plan sets forth three commitments
    Introduction                     designed to maintain the Postal Service's financial
                                     viability and fulfill its universal service mission. The
                                     three commitments are: growth through added value to
                                     customers, controlling costs through operational efficiency,
                                     and enhancing its performance-based culture.

                                     The Postal Service plans to accomplish these commitments
                                     through a variety of strategies that include changing
                                     legislation and regulations. The strategies are anticipated to
                                     generate $5 billion in savings and cost avoidance through
                                     2006.

    OIG Work1                        Much of the Office of Inspector General's (OIG) work has
                                     examined issues related to the commitments and strategies
                                     the Postal Service proposes. For the Transformation Plan to
                                     be successful, the Postal Service should consider our work,
                                     as outlined below, in accomplishing the commitments
                                     through the strategies.

                                     Commitment 1: Growth through Added Value to
                                     Customers (offer affordable products and services,
                                     generate new revenues, and adapt to technological
                                     advances)

                                     •    Automation efforts need to achieve anticipated returns on
                                         investment, account for all costs, and properly track
                                         performance.

                                     •   eCommerce initiatives need to protect privacy and
                                         security.

                                     •    Managers need to better coordinate their work--there
                                          were five overlapping public key infrastructure initiatives,
                                          four of which have now been cancelled.




1
    Attached is an appendix of OIG reports that is cross-referenced to the commitments and related enabling functions.




Postal Service’s Transformation Plan                        1                                       CQ-OT-02-002
                               •    Sound financial data needs to support business
                                   initiatives.

                               •   Outdated studies used to support rate requests need to
                                   be replaced.

                               Commitment 2: Operational Efficiency (control costs)

                               •   The Surface-Air Management System needs better
                                   security controls, contract administration, and more
                                   reliable information.

                               •   Financial data used to support anticipated revenue
                                   needs to be improved--FedEx alliance to transport mail
                                   will not save as much money as anticipated.

                               •    Financial decisions need better cost analysis--leasing
                                   instead of buying trailers costs $85 million more.

                               •   Operational procedures need to be followed to avoid
                                   unnecessary costs--damage to trailers costs $1 million
                                   per year.

                               •   The use of standard contract clauses to protect Postal
                                   Service interests would enhance our ability to prosecute
                                   cases--successful prosecutions in the area of contract
                                   fraud, have reduced costs and deterred fraud in the
                                   Postal Service's $15 billion contracting environment.

                               •   Continued coordination with the Postal Service’s Law
                                   Department would reduce claims--investigation of
                                   fraudulent tort and indemnity claims has reduced liability
                                   for third party claims even more.

                               Commitment 3: Performance-Based Culture (maintain
                               effective, diverse, and motivated workforce)

                               •   Associate Supervisor Program needs improvement.

                               •   Succession planning needs improvement.

                               •   A performance-based pay system is needed.




Postal Service’s Transformation Plan             2                               CQ-OT-02-002
                               •   Grievance-arbitration process needs improvement--
                                   management has recognized this in a new agreement
                                   with the National Association of Letter Carriers.

                               •   Changes are needed to improve workplace climate.

                               •   Better oversight of administrative leave is needed to
                                   reduce costs.

                               •    Workers' compensation costs need to be reduced
                                   through improved internal management controls--the
                                   investigation of medical providers perpetrating fraud
                                   against postal programs is a high priority.

                               Enabling Functions to Support Commitments (enhance
                               financial management; adopt business-driven purchasing
                               procedures; implement information technology with universal
                               connectivity; and ensure safety, security, and privacy of
                               mail)

                               •   Stronger purchasing practices and contract
                                   administration are needed.

                               •   Better controls are needed over vendor payments--
                                   almost $1.4 million was paid to vendors for services
                                   already paid for or not rendered.

                               •   Better password administration needs to be enforced.

                               •   Intrusion detection software needs to be configured
                                   properly.

                               •    Over 15,000 potential system vulnerabilities we have
                                   identified need to be corrected and prevented from
                                   reoccurring.

                               •   Hacking and infecting Postal Service systems with
                                   worms and viruses needs to be prevented--increased
                                   deterrence measures have thwarted these crimes.

                               •    Employees need to vigilantly protect against computer
                                   intrusion--through OIG's computer fraud awareness
                                   briefings, employees have increased their knowledge of
                                   potential risk factors affecting computer networks, thus




Postal Service’s Transformation Plan             3                              CQ-OT-02-002
                                   raising their vigilance and conformance with security
                                   requirements to deter unauthorized intrusions.

                               •   Relocation benefits need to be made comparable to
                                   those offered by other organizations.

                               •   Property management needs to be improved--
                                   30 properties purchased for $45 million were never
                                   developed, never utilized, or referred for disposal.

                               •    A single systems development methodology needs to be
                                   followed--our work resulted in the Postal Service creating
                                   a standard systems development methodology to identify
                                   operational problems early on, avoiding costly mistakes
                                   later.

                               OIG work has focused on many of the Transformation Plan’s
 Summary                       key issues. The Postal Service has an opportunity to use
                               this work to address those issues.




Postal Service’s Transformation Plan             4                               CQ-OT-02-002
                      APPENDIX I
           OIG Work Related to Transformation Plan
                                                         Related Commitment/
                                                               Enabling
           Report Title, Number, and Date Issued               Function

Processing Operations Information System,
Report Number DA-AR-02-002, dated March 22, 2002
                                                                 #1

Performance of Automated Flat Sorting Machine 100
Report Number DA-AR-02-001, dated February 22, 2002
                                                                 #1

Decision Analysis Report Process
Report Number DA-AR-01-005, dated September 27, 2001
                                                                 #1

Mailing Evaluation, Readability, and Lookup Instrument
(MERLIN) First Article Testing
Report Number DA-MA-01-002, dated September 24, 2001
                                                                 #1

Delivery Operations Information System
Report Number DA-AR-01-003, dated March 29, 2001
                                                                 #1

Information Platform Planning
Report Number DA-AR-00-004, dated September 28, 2000
                                                                 #1

Mailing Evaluation, Readability, and Lookup Instrument
(MERLIN) Proof of Concept
Report Number DA-AR-00-003, dated July 31, 2000
                                                                 #1

Tray Management System
Report Number DA-AR-00-002, dated March 31, 2000
                                                                 #1

Phase I Remote Encoding Center Consolidation
Report Number DA-AR-00-001, dated February 10, 2000
                                                                 #1




   Postal Service’s Transformation Plan       5                   CQ-OT-02-002
                                                              Related Commitment/
                                                                    Enabling
           Report Title, Number, and Date Issued                    Function
Point of Service ONE
Report Number DA-AR-99-002, dated September 20, 1999
                                                                      #1

USPS.com Disaster Recovery Plan
Report Number EC-AR-01-002, dated March 28, 2001
                                                                      #1

Protection of Internet Users' Information
Report Number EC-AR-01-001, dated March 26, 2001
                                                                      #1

USPS eBillPay Security and Privacy Issues
Report Number EC-AR-00-001, dated September 5, 2000
                                                                      #1

Public-Key Infrastructure Initiatives by the Postal Service
Report Number EM-AR-02-009, dated March 29, 2002
                                                                      #1

Review of Rate Case Development Process, in progess
                                                                      #1

Postal Service Efforts to Address Data Quality Study
Recommendations
Report Number FT-AR-02-004, dated December 19, 2001
                                                                      #1

Surface-Air Management System
Report Number DA-AR-02-005, dated April 19, 2002
                                                                      #2

Interim Audit Results of Security Risks Associated with the
FedEx Transportation Agreement
Report Number TR-MA-01-003, dated September 27, 2001
                                                                      #2

Interim Audit Results on Excise Taxes and Third Party
Ground Handling Costs Under the FedEx Transportation
Agreement
Report Number TR-MA-01-002, dated August 8, 2001
                                                                      #2




   Postal Service’s Transformation Plan         6                      CQ-OT-02-002
                                                           Related Commitment/
                                                                 Enabling
          Report Title, Number, and Date Issued                  Function

Interim Audit Results of FedEx Transportation Agreement
Report Number TR-LA-01-001, dated June 26, 2001
                                                                   #2

Trailer Lease Justification
Report Number TD-AR-02-002, dated March 29, 2002
                                                                   #2

Trailer Damage
Report Number TD-MA-02-002, dated March 22, 2002
                                                                   #2

Review of the Associate Supervisor Program, Great Lakes
Area, in progress
                                                                   #3

Review of the Postal Service’s Corporate Succession
Planning Process, in progress
                                                                   #3

Performance Measures Used in the Pay for Performance
Program
Report Number AC-AR-02-DRAFT, dated April 11, 2002
                                                                   #3

Reasonableness and Distribution of Pay for Performance
Incentive Awards
Report Number AC-AR-02-DRAFT, dated April 11, 2002
                                                                   #3

Use of the Economic Value Added Concept in the Pay for
Performance Program
Report Number LH-AR-02-001, dated December 5, 2001
                                                                   #3

Follow-up Report on Postal Service Grievance-Arbitration
Procedures, in progress
                                                                   #3
Effectiveness of United States Postal Service Grievance-
Arbitration Procedures
Report Number LM-MA-99-002, dated March 26, 1999
                                                                   #3




   Postal Service’s Transformation Plan       7                     CQ-OT-02-002
                                                             Related Commitment/
                                                                   Enabling
          Report Title, Number, and Date Issued                    Function

Grievance and Arbitration Management Information
Report Number LR-MA-99-001, dated March 26, 1999
                                                                     #3

National Capping Report on the Postal Service Violence
Prevention and Response Programs
Report Number LB-AR-01-020, dated August 23, 2001
                                                                     #3

Alleged Harassment and Abuse at the New London,
Connecticut Post Office
Report Number LB-LA-01-003, dated May 29, 2001
                                                                     #3

Allegations of a Tense and Stressful Work Environment at a
Post Office in the Santa Ana District
Report Number LB-AR-01-017, dated May 14, 2001
                                                                     #3

Allegations of a Hostile Working Environment at a New York
Metro Area Post Office
Report Number LB-AR-01-018, dated May 11, 2001
                                                                     #3

Review of Allegations of a Hostile Work Environment at a
Post Office in the Greater South Carolina District
Report Number LB-MA-01-001, dated March 29, 2001
                                                                     #3

Allegations of a Hostile Working Environment at a Post
Office in the Southeast Area
Report Number LM-AR-00-001, dated March 20, 2000
                                                                     #3

Review of Government Performance and Results Act
Implementation, in progress
                                                                     #3
Review of the United States Postal Service’s Compliance
with the Government Performance and Results Act, Phase II
Report Number DS-MA-99-004, dated March 30, 1999                     #3




    Postal Service’s Transformation Plan       8                       CQ-OT-02-002
                                                               Related Commitment/
                                                                     Enabling
          Report Title, Number, and Date Issued                      Function
Review of the United States Postal Service’s Compliance
with the Government Performance and Results Act
Report Number DS-MA-99-001, dated March 26, 1999
                                                                         #3
Follow-up Report on Postal Service’s Oversight of Other
Paid Administrative Leave Use
Report Number LH-MA-02-001, dated November 29, 2001
                                                                         #3
Assessment of Management Oversight of Administrative
Leave Used in Los Angeles and San Diego
Report Number LC-AR-01-008, dated July 10, 2001
                                                                         #3

Southwest Area’s Efforts in Obtaining Appropriate
Chargeback Credits for Identified Wage Compensation
Overpayments and Refundable Disbursements
Report Number LH-AR-02-DRAFT, dated March 7, 2002
                                                                         #3


Internal Controls Over International Merchant Purchase          Enabling Function--
Authorization Card Purchases                                  Purchasing and Materials
Report Number FT-AR-02-002, dated November 6, 2001                 Management

                                                                Enabling Function--
Responsibilities of Contracting Officers' Representatives     Purchasing and Materials
Report Number CA-AR-01-002, dated April 30, 2001                   Management

Payments to Contract Stations and Vendors Providing             Enabling Function--
Goods and Services                                            Purchasing and Materials
Report Number FT-AR-02-011, dated March 6, 2002                    Management

Fiscal Year 2001 Information System Controls-User Account
and Password Administration in UNIX Operating Systems at
Eagan, Minnesota                                            Enabling Function--Information
Report Number IS-AR-01-002, dated August 23, 2001                    Technology

Network Security at the San Mateo Computer Operations
Service Center                                                   Enabling Function--
Report Number IS-AR-01-001, dated April 18, 2001               Information Technology




    Postal Service’s Transformation Plan        9                          CQ-OT-02-002
                                                                Related Commitment/
                                                                      Enabling
          Report Title, Number, and Date Issued                       Function

Security Vulnerability Technical Report - Security Testing of
Servers at the Topeka Operations Central Repair Facility,
Topeka, Kansas                                                    Enabling Function--
Report Number IS-AR-02-004, dated March 22, 2002                Information Technology

Network Vulnerability Assessment at the Maintenance
Technical Support Center, Norman, Oklahoma                        Enabling Function--
Report Number IS-CS-02-003, dated February 4, 2002              Information Technology

Shared Real Estate Appreciation Loan Program                      Enabling Function--
Report Number FT-AR-02-001, dated October 17, 2001              Financial Management

Deviations from Postal Relocation Policy                          Enabling Function--
Report Number FT-AR-00-005, dated September 29, 2000            Financial Management

Equity Loss Payments                                              Enabling Function--
Report Number FT-AR-00-004, dated September 29, 2000            Financial Management

Miscellaneous Relocation Expense Payments                         Enabling Function--
Report Number FT-AR-00-001, dated September 28, 2000            Financial Management

Relocation Benefits for Postal Service Officers                   Enabling Function--
Report Number FR-FA-00-010, dated May 2, 2000                   Financial Management

Disposal of Excess Real Property                                 Enabling Function--
Report Number CA-AR-02-002, January 28, 2002                     Facilities Purchasing

Delivery Unit Notification System Application Development
Review                                                            Enabling Function--
Report Number EM-AR-02-006, dated March 27, 2002                Information Technology

Vehicle Operations Information System
Report Number EM-AR-02-005, dated March 26, 2002                  Enabling Function--
                                                                Information Technology




   Postal Service’s Transformation Plan         10                         CQ-OT-02-002
                                                        Related Commitment/
                                                              Enabling
         Report Title, Number, and Date Issued                Function

eServices Registration Application Development Review     Enabling Function--
Report Number EM-AR-02-004, dated March 26, 2002        Information Technology

Facilities Database Application Development Review        Enabling Function--
Report Number EM-AR-02-003, dated March 26, 2002        Information Technology




   Postal Service’s Transformation Plan     11                     CQ-OT-02-002
